U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

September 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Jorge Alejandro Rojas v. FAA,
No. 21-133
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 29, 2021,
and placed on the Court’s docket on August 2, 2021. The government’s response is currently due,
on one extension, on October 1, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including November 1, 2021 (a Monday), within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final preparation
of the government’s response have been on parental leave and heavily engaged with the press of
other matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Brian H. Fletcher
Acting Solicitor General

cc:

See Attached Service List

21-0133
ROJAS, JORGE ALEJANDRO
FEDERAL AVIATION ADMINISTRATION

CARL CECERE
CECERE PC
6035 MCCOMMAS BLVD.
DALLAS, TX 75206
469-600-9455
CCECERE@CECEREPC.COM
ROBERT M. LOEB
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8400
RLOEB@ORRICK.COM
NAOMI JEAN SCOTTEN
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 WEST 52ND STREET
NEW YORK, NY 10019
212-506-5116
NSCOTTEN@ORRICK.COM

